U.S. Department of Labor                Office of Inspector General
                                        Washington, DC. 20210



March 21, 2013


Anthony Sarmiento
Executive Director
Senior Service America, Inc.
8403 Colesville Road, Suite 1200
Silver Spring, MD 20910

Dear Mr. Sarmiento:

This final report (24-13-005-03-360) transmits the results of a Quality Control
Review (QCR) the U.S. Department of Labor’s Office of Inspector General
conducted on the following audit performed by Gorfine, Schiller, & Gardyn, P.A.
under the Federal Single Audit Act and Office of Management and Budget
Circular A-133:

      Single Audit of Senior Service America, Inc. for the Year Ended
      June 30, 2012

We conducted the QCR to determine if: (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements,
(2) any issues required management’s attention, and (3) follow-up work was
needed.

Per the table below, we included the following major program in our review.


 DOL Major Program                      Catalog of Federal            DOL Funds
 Reviewed                             Domestic Assistance              Expended
                                                  Number
 Senior Community Service
 Employment Program                                         17.235    $55,052,351

We determined the accounting firm performed acceptable audit work and met the
requirements of the Federal Single Audit Act and Office of Management and
Budget Circular A-133. We also determined no issues required your attention
and no follow-up work was needed.




                 Working for America’s Workforce
                                       -2-




If you have any questions concerning the results of the QCR, please contact
Melvin Reid, Director, Office of Audit Quality Assurance, at (202) 693-6993.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

cc: Lynn Woo, Controller
    Senior Service America, Inc.

   Scott Rodgville, Officer
   Gorfine, Schiller, & Gardyn, P.A.

   Jennifer Richards, Audit Liaison
   Employment and Training Administration

   Stephen Daniels, Director
   Division of Policy, Review and Resolution
   Employment and Training Administration
